October 27, 2020
Via Electronic Filing
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re:

Y.W. v. Patricia Aufiero, et al. No. 20-471
Motion to Extend Time to Respond to Petition for
Writ of Certiorari
Our File No. 172

Dear Mr. Harris:
This office represents Respondents, New Milford Board of
Education, and Patricia Aufiero, in the above referenced matter.
Pursuant to Supreme Court Rule 30.4, Respondents respectfully move
for an extension of time to file a brief in opposition to the
Petition for Writ of Certiorari in this matter. Our office was
recently informed on October 23, 2020, that the Petition for a
Writ of Certiorari was placed on the Court's docket on October 9,
2020; as such, Respondent's brief is due on or before November 9,
2020.
In light of the fact that Respondents were just made aware of
the Court's docketing of this matter, and thus, a short period of
time available to adequately respond to the Petition for Writ of
Certiorari, Respondents respectfully request a thirty (30) day
extension of time to file its response. No prejudice will result
from the requested extension and counsel for Petitioner has
consented to this request.

{F&H00153300.DOCX/1}

Scott S. Harris
Supreme Court of the United States
October 27, 2020
Page 2
Accordingly, Respondents respectfully request an extension of
the deadline for filing their response to the Petition for Writ of
Certiorari from November 9, 2020 until December 9, 2020.
Thank you for your consideration.
Respectfully submitted
FOGARTY & HARA
BY:

/s/ Stephen R. Fogarty
STEPHEN R. FOGARTY, ESQ.

SRF/dh
cc: Mr. Michael A. Polizzi
Superintendent of Schools
Leopold Gross, Esq.
Counsel for Petitioner

{F&H00153300.DOCX/1}

